 Department of Health and Human Services
                    OFFICE OF

               INSPECTOR GENERAL





 MARYLAND CLAIMED ALLOWABLE

COMMUNITY SERVICES BLOCK GRANT

    RECOVERY ACT COSTS FOR

  UNITED COMMUNITIES AGAINST

         POVERTY, INC.



   Inquiries about this report may be addressed to the Office of Public Affairs at
                            Public.Affairs@oig.hhs.gov.




                                                   Stephen Virbitsky

                                                Regional Inspector General


                                                         April 2013

                                                       A-03-11-00250

                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices



    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as

 questionable, a recommendation for the disallowance of costs

 incurred or claimed, and any other conclusions and

 recommendations in this report represent the findings and 

 opinions of OAS. Authorized officials of the HHS operating

 divisions will make final determination on these matters.

                                      INTRODUCTION


BACKGROUND

Community Services Block Grant Program

The Community Services Block Grant (CSBG) program was reauthorized by the Community
Opportunities, Accountability, and Training and Educational Services Act of 1998, P.L. No. 105­
285 (the CSBG Act), to provide funds to alleviate poverty in communities. Within the U.S.
Department of Health and Human Services, the Administration for Children and Families (ACF),
Office of Community Services, administers the CSBG program. The CSBG program funds a
State-administered network of more than 1,000 local Community Action Agencies (CAA) that
create, coordinate, and deliver programs and services to low-income Americans. The CAAs
provide services and activities addressing employment, education, housing, nutrition, emergency
services, health, and better use of available income.

The American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act), enacted
February 17, 2009, provided an additional $1 billion to ACF for the CSBG program in fiscal year
(FY) 2009. Recovery Act funds for the CSBG program were distributed to CAAs using the
existing statutory formula. As with annually appropriated CSBG funds, Recovery Act funds
were to be used to reduce poverty, revitalize low-income communities, and help low-income
Americans. CSBG services funded by the Recovery Act were to be provided on or before
September 30, 2010.

Maryland’s Department of Housing and Community Development

Section 676(a) of the CSBG Act requires each State to designate an appropriate State agency to
act as the lead agency for carrying out the State’s CSBG activities. Maryland’s Department of
Housing and Community Development (the State) acts as the lead agency to carry out State
activities for the CSBG program. The State is responsible for approving CAA Recovery Act
grant applications and monitoring the CAAs for compliance with program requirements. The
State received $13,719,817 in Recovery Act funds for the CSBG program.

United Communities Against Poverty, Inc.

United Communities Against Poverty, Inc. (United), a nonprofit organization, has provided
services to individuals and families in Prince George’s County, Maryland, since 1964. During
FY 2009, the State awarded United $563,183 in CSBG grant funds and $907,817 in CSBG
Recovery Act funds.

Federal Requirements for Grantees

Section 678D(a)(1)(B) of the CSBG Act requires that States receiving CSBG funds ensure that
costs and accounting standards of the Office of Management and Budget (OMB) apply to a
recipient of the funds under this subtitle. As a result, ACF determined that nonprofit Community
Action Agencies are subject to 45 CFR part 74. The Federal regulations (45 CFR § 74.27(a))


                                               1

state that the allowability of costs for nonprofit organizations will be determined in accordance
with OMB’s Cost Principles for Non-Profit Organizations (2 CFR part 230). 1

To be allowable under a Federal award, costs must be reasonable, allocable, and adequately
documented (2 CFR part 230, App. A, A.2.a and A.2.g). Additionally, salary and wage costs
should be based on documented payrolls and the distribution to awards must be supported by
personnel activity reports (2 CFR part 230, App. B, 8.m(1)).

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State claimed CSBG Recovery Act costs on behalf
of United that were allowable under the terms of the grant and applicable Federal regulations.

Scope

We reviewed $622,781 of the $907,817 claimed by United under its CSBG Recovery Act
agreement with the State for the period from July 1, 2009, through September 30, 2010. This
review is part of a series of audits planned by the Office of Inspector General to provide
oversight of funds provided by the Recovery Act. We did not perform an overall assessment of
United’s internal control structure. Rather, we reviewed only the internal controls that pertained
to our objective.

We performed our fieldwork at United’s office in Capitol Heights, Maryland, during August and
September 2011.

Methodology

To accomplish our objective, we:

      •	 reviewed relevant Federal requirements;

      •	 confirmed that United was not excluded from receiving Federal funds;

      •	 reviewed the terms and conditions of the Recovery Act Grant Agreement between United
         and the State, and relevant State guidance;

      •	 reviewed United’s FY 2008 and 2010 State monitoring reports;

      •	 reviewed United’s policies and procedures related to its CSBG programs;

      •	 reviewed United’s by-laws and minutes from the Board of Directors meetings, and the

1
    OMB Circular A-122, Cost Principles for Non-Profit Organizations was relocated to 2 CFR part 230.



                                                         2

       composition of the Board;

   •	 reviewed United’s FY 2008 Office of Management and Budget Circular A-133 audit
      reports and the attached Schedule of Findings and Questioned Costs;

   •	 reviewed United’s budget, general ledger, and each cost category as a percentage of total
      costs; and

   •	 judgmentally selected a sample of transactions totaling $622,781 ($503,768 in
      subcontract and other costs, and $119,013 in salaries) for detailed test, which included,
      but was not limited to, reviewing United’s documentation supporting the transactions for
      allowability in accordance with terms of the grant and Federal requirements.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

RESULTS OF AUDIT

CSBG Recovery Act costs that the State claimed for United were allowable in accordance with
the terms of the grant and Federal requirements. Consequently, this report has no
recommendations.




                                               3

